D                                                                        EMPLOYMENT AND TRAINING

U.S. Department of Labor
I
S
C
U
S
S
I
                                                                         ADMINISTRATION


O                          Office of Inspector General—Office of Audit
N

D
R
A
F
T




                                                                         ETA NEEDS TO ENHANCE ITS PERFORMANCE
                                                                         EVALUATION PROCESS FOR DISCRETIONARY
                                                                         GRANTEES AT CLOSEOUT AND USE RESULTS FOR
                                                                         FUTURE GRANT INVESTMENTS




                                                                                            Date Issued:   December 20, 2012
                                                                                         Report Number:      02-13-201-03-390
                                                           December 2012
U.S. Department of Labor
Office of Inspector General                                ETA NEEDS TO ENHANCE ITS PERFORMANCE
Office of Audit                                            EVALUATION PROCESS FOR DISCRETIONARY
                                                           GRANTEES AT CLOSEOUT AND USE RESULTS
                                                           FOR FUTURE GRANT INVESTMENTS
BRIEFLY…                                                   WHAT OIG FOUND
Highlights of Report Number 02-13-201-03-390,
issued to the Assistant Secretary for Employment
                                                           ETA complied with federal and agency
and Training.
                                                           administrative guidelines, such as timeliness and
                                                           financial reconciliations, at closeout. However,
WHY READ THE REPORT
                                                           there was limited assurance that grants achieved
                                                           their intended goals. Grantees’ overall performance
The Employment and Training Administration's
                                                           was not always evaluated and documented, and
mission is to contribute to the efficient functioning of
                                                           ETA did not demonstrate that final performance
the U.S. labor market by providing high quality job
                                                           results were used in the pre-award phase to
training, employment, labor market information, and
                                                           improve future grant investments.
income maintenance services operated primarily
through state and local workforce development              ETA certified all sampled grantees’ performance as
systems. ETA drives this strategic development of          acceptable, although achievement of grant goals
the workforce primarily by the investment of federal       ranged from 0 percent to 100 percent. This
resources through grants.                                  occurred because the certification process lacked
                                                           criteria for defining acceptable performance.
One of the methods ETA uses to accomplish this is          Furthermore, ETA did not follow its own rules
through discretionary grant programs. The                  requiring the evaluation of grantee performance.
discretionary grant award process encompasses all          This was because ETA had not considered a need
aspects of the planning, execution, oversight, and         to develop and implement a process to ensure
closeout of ETA awards. The goal of this phase is          information about grantee performance was
to complete the closeout of grants expeditiously,          captured during the closeout phase and used for
which includes the resolution of audits and                future grant design and investments.
collection of debt, and maintenance of all grant
financial and performance records for evaluation           WHAT OIG RECOMMENDED
and consideration in future awards.
                                                           We recommended the Assistant Secretary for
WHY OIG CONDUCTED THE AUDIT                                Employment and Training develop criteria for
                                                           determining acceptable performance for
Our audit objective was to answer the following            discretionary grant programs that lacked such
question:                                                  criteria, and implement a process that captures
                                                           grantee performance results for use in future grant
Did ETA close grants in accordance with federal            investments.
and agency guidelines including analyzing final
performance results for use in the pre-award phase         In response to the draft report, the Assistant
of future grants?                                          Secretary for Employment and Training was
                                                           primarily concerned with OIG’s definition of grant
READ THE FULL REPORT
                                                           success, which was limited to the number of grants
                                                           that met all of their individual goals. However, ETA
To view the report, including the scope,
                                                           did not address the need to develop criteria for
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2013/02-13-201-
                                                           determining acceptable performance or
03-390.pdf.                                                implementing a process that captures grantee
                                                           performance results for use in future grant
                                                           investments.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
                                      Report No. 02-13-201-03-390
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Did ETA close grants in accordance with federal and agency
            guidelines including analyzing final performance results for use in
            the pre-award phase of future grants? .................................................. 4
                   Overall, ETA complied with federal and agency administrative
                   guidelines in closing grants. However, performance certifications
                   provided limited assurance that grants achieved their intended
                   goals. ......................................................................................................... 4

Recommendations ...................................................................................................... 15

Exhibits
         Exhibit 1 – Performance Summaries .................................................................. 19
         Exhibit 2 – Sampled Community Based Job Training Grant Summaries ............ 21
         Exhibit 3 – Sampled High Growth Grant Summaries .......................................... 31
         Exhibit 4 – Sampled National Emergency Grant Summaries ............................. 35
         Exhibit 5 – Sampled Research & Green Job Grant Summaries ......................... 37
         Exhibit 6 –Sampled Workforce Investment & Regional Economic
                     Development Grant Summary ........................................................... 39
         Exhibit 7 –Sampled Senior Community Service Employment Program
                     Grant Summary ................................................................................. 41
         Exhibit 8 – Audit Projection Summary ................................................................ 43

Appendices
         Appendix A Background ..................................................................................... 47
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 49
         Appendix C Acronyms ........................................................................................ 53
         Appendix D ETA's Response to Draft Report ..................................................... 55
         Appendix E Acknowledgements ......................................................................... 57




                                                                                                       Discretionary Grants
                                                                                               Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
                                      Report No. 02-13-201-03-390
                                            U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




December 20, 2012

                        Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


The mission of the Department of Labor’s (DOL) Employment and Training
Administration (ETA) is to contribute to the efficient functioning of the U.S. labor market
by providing high quality job training, employment, labor market information, and income
maintenance services operated primarily through state and local workforce development
systems. ETA drives this strategic development of the workforce primarily by the
investment of federal resources through grants.

One of the methods ETA accomplishes this is through its discretionary grant programs.
The discretionary grant award process encompasses all aspects of the planning,
execution, oversight, and closeout of ETA awards. The closeout of grants occurs during
the post-performance period which begins at grant termination and ends with the final
disposal of grant records. The goal of this phase is to complete the closeout of grants
expeditiously, which includes the resolution of audits and collection of debt, and
maintenance of all grant financial and performance records for evaluation and
consideration in future awards. To this end, we designed our audit to answer the
following objective:

       Did ETA close grants in accordance with federal and agency guidelines
       including analyzing final performance results for use in the pre-award
       phase of future grants?

The scope of the audit covered 560 discretionary grants closed between April 1, 2010,
and March 31, 2011, representing $1.86 billion, which included 74 American Recovery
and Reinvestment Act (ARRA) grants totaling $92 million. We selected a statistical
sample of 38 grants to review, totaling $839 million, which included 5 Recovery Act
grants totaling $3.4 million.

We reviewed the 38 sampled grants to determine if grants were closed in accordance
with federal and agency guidelines. We compared approved budgets to grantee general

                                                                                Discretionary Grants
                                              1                         Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


ledgers and/or summary schedules to ensure that budgeted line items were not
exceeded. We also compared performance outcomes and deliverables from grant
agreements to supporting documentation provided by grantees. On-site reviews were
conducted for 4 grants. During the on-site reviews, we performed transaction testing on
a judgmental basis for both financial and performance data. For the remaining 34
grants, we did not perform tests on the transactions. In addition, we interviewed officials
from ETA’s national and regional offices.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

Overall, ETA complied with federal and agency administrative guidelines, such as
timeliness and financial reconciliations, at closeout. However, there was limited
assurance that grants achieved their intended goals. Grantees’ overall performance was
not always evaluated and documented, and ETA did not demonstrate that final
performance results were used in the pre-award phase to improve future grant
investments.

ETA certified all sampled grantees’ performance as acceptable, although achievement
of grant goals ranged from 0 percent to 100 percent. This occurred because the
certification process lacked criteria for defining acceptable performance (with the
exception of the Senior Community Service Employment Program (SCSEP)). In the
absence of a benchmark to measure grants, performance acceptability was inconsistent
and ineffective. Additionally, when ETA certified grants, reasons for certifying
performance as acceptable were not documented. Despite a lack of criteria or
documentation to support performance, DOL regulations allow ETA to levy penalties for
material non-compliance. ETA may terminate, disallow costs, or withdraw awards if a
recipient is found to be in material non-compliance with the terms and conditions of an
award. Based on grantee reported performance, 18 of the 22 sampled non-SCSEP
grants did not meet all of their goals. However, ETA certified performance of these
grants as acceptable. Without criteria for defining material non-compliance, ETA has no
consistent way of applying sanctions in instances of material non-compliance. Based on
our sample results, we projected that at least 208 of the total 560 discretionary grants
did not meet their goals, representing over $229 million in grant expenditures.

Furthermore, ETA did not demonstrate that grantee performance was used in the
pre-award phase to improve future grant design and investments. ETA did not follow its
own rules requiring the evaluation of grantee performance. This was because ETA had
not considered a need to develop and implement a process to ensure information about
grantee performance was captured during the closeout phase and used for future grant


                                                                            Discretionary Grants
                                             2                      Report No. 02-13-201-03-390
                                             U.S. Department of Labor – Office of Inspector General


design and investments. This information is relevant as many discretionary grants are
awarded competitively. The ETA vetting process used during the pre-award phase
focused on prior negative financial issues to prevent the awarding of future grants. ETA
could not demonstrate that past programmatic performance was consistently used for
evaluating future grants. However, ETA acknowledged this weakness and began
including past performance criteria, beginning with Reintegration of Ex-Offenders’
Solicitation for Grant Application (SGA) in January 2012, as well as SGAs for Grants
Serving Juvenile Ex-Offenders, Serving Adult and Youth Ex-Offenders Through
Strategies Targeted to Characteristics Common to Female Ex-Offenders and
YouthBuild 2012.

We recommend the Assistant Secretary for Employment and Training develop criteria
for determining acceptable performance for discretionary grant programs that lacked
such criteria. Also, the Assistant Secretary should implement a process that captures
grantee performance results for use in future grant investments.

ETA’S RESPONSE

In response to the draft report, ETA stated that it does not believe the report title reflects
the critical finding that ETA complied with federal and agency administrative guidelines.
Moreover, ETA was primarily concerned with the substance of the report, in which
OIG’s determination of success of the discretionary grant program was limited to the
number of grants that met all of their individual goals. ETA also stated that OIG made
incorrect assumptions in projecting that 208 grants expended all their grant funds. ETA
also identified a number of grantee-specific results that did not match the results that
ETA provided. ETA’s entire response is included in Appendix D.

ETA’s primary concern with the substance and title of the report are interrelated. ETA
needs to define acceptable performance and not certify performance as acceptable
when achievement of grant goals ranged from 0 percent to 100 percent. Furthermore,
OIG’s projections for the 208 grants were based on final grant expenditures. ETA did
not address the need for developing criteria for determining acceptable performance for
its discretionary grant programs or for implementing a process that captures grantee
performance results for use in future grant investments. The grantee-specific results
provided by ETA were previously submitted during the audit, whereas audit results were
based on evidence obtained from ETA and grantees. Where appropriate, we made
technical clarifications in the report based on ETA’s response to the draft report.




                                                                              Discretionary Grants
                                              3                       Report No. 02-13-201-03-390
                                               U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did ETA close grants in accordance with federal and agency
             guidelines including analyzing final performance results for use
             in the pre-award phase of future grants?

      Overall, ETA complied with Federal and agency administrative guidelines in
      closing grants. However, performance certifications provided limited assurance
      that grants achieved their intended goals.

ETA’s grant closeout process is primarily administrative in nature and does not provide
a clear indication as to whether grantees achieved their intended goals. Closeout
specialists ensured that all forms were completed and submitted timely by grantees.
They reconciled grant expenditures to award amounts, de-obligated unexpended funds
or obtained refunds from grantees for overdrawn funds, and ensured the appropriate
disposition of real property and equipment. Additionally, they ensured that any open
audit findings and disallowed costs were resolved. However, there was limited
emphasis by ETA on evaluating and documenting grantees’ final performance.
Moreover, ETA did not demonstrate that final performance results were used to improve
future grant design.

We found that all grants in our sample were either certified with acceptable performance
or did not have certification, even though achievement of grant goals ranged from
0 percent to 100 percent (see Exhibit 1, Performance Results for Sampled Grants). This
occurred because the certification process included a requirement to determine
performance acceptability, but lacked criteria that defined acceptable performance (with
the exception of SCSEP).

Employment and Training Order (ETO) No. 1-08, Grant Management Policies and
Responsibilities within the Employment and Training Administration, states that Federal
Project Officers (FPOs) are required to certify grant performance outcomes at closeout.
This certification consists of three areas: a) submission of required reports;
b) determination of acceptable performance; and c) certification of grant expenses to
ensure compliance with the grant agreement.

ETA complied with federal and agency guidelines regarding submissions of grantee
reports and certification of grant expenditures. However, the basis used in determining
acceptable performance was not defined, documented, or consistently applied.

Based on our review of completed certifications, we noted that SCSEP 1 had criteria for
evaluating grantees performance at the end of a program year. However, ETA’s other
discretionary grant programs did not include written criteria or standards for determining
acceptable performance. Since performance acceptability was not defined, performance
certifications completed by Federal Project Officers (FPOs) were not reliable indicators
1
 SCSEP has regulations in place for determining acceptable performance in which grantees must meet
an aggregated average total of 80 percent of 6 core performance measures.

                                                                                Discretionary Grants
                                                 4                      Report No. 02-13-201-03-390
                                                    U.S. Department of Labor – Office of Inspector General


of grantees’ overall performance. Additionally, FPOs did not always document or
consistently apply reasons for certifying performance as acceptable. We interviewed
16 FPOs and regional officials and were provided with the following practices for
measuring performance:

      •   Six officials stated they used their own judgment and/or experience with the
          grantee to make performance certification decisions.

      •   Six officials stated they compared grant results to goals included in the grant
          agreement.

      •   Two officials stated they used a measure of accomplishing 80 percent of grant
          goals as criteria.

      •   Two officials stated they used a measure of accomplishing 100 percent of grant
          goals as criteria.

Additionally, two FPOs stated that they never certified a grant as unacceptable. Based
on our assessment of the interview responses and a review of completed performance
certifications, we determined that performance measures used were subjective,
inconsistent, and unsupported.

In addition, we found that performance certifications were not prepared for National
Emergency Grants (NEGs), nor were alternate measures or benchmarks used to
evaluate their overall performance. Furthermore, our review of four NEGs revealed that
results reported by three of the four grantees noted that they did not achieve all their
goals. This practice further adds to the inconsistency by which the performance
certification process is applied.

ETA Provided Limited Assurance That Grantees Achieved Goals

Our sample consisted of 38 discretionary grants – 16 SCSEP and 22 non-SCSEP
grants. Based on the review of reported performance results, all 16 SCSEP grants
achieved acceptable outcomes based on the regulations in place. However, 18 of the
22 non-SCSEP grants (82 percent) did not meet all of their goals, but were certified with
acceptable performance by ETA. Based on our sample results, we projected that at
least 208 of the total 560 discretionary grants did not meet all of their goals,
representing over $229 million in grant expenditures (see Exhibit 8 – Audit Projection
Summary). 2

Despite a lack of criteria or documentation to support performance, DOL regulations
allow ETA to levy penalties for unacceptable performance. ETA may terminate, disallow
costs, or withdraw awards if a recipient is found to be in material non-compliance with

2
    Sample projected using a 90 percent confidence level, and +/- 17.65 percent precision.


                                                                                      Discretionary Grants
                                                      5                       Report No. 02-13-201-03-390
                                                     U.S. Department of Labor – Office of Inspector General


the terms and conditions of an award. Without criteria for defining material
non-compliance, ETA had no basis for applying sanctions.

The following table shows the achievement of outcomes/deliverables for sampled grant
programs.

TABLE 1: Performance Summary of Sampled Grants by Program
                                                                                      Grants Percent
                                                                       Grants        Did Not      of
                                     No. of Award                      Met All 3     Meet All Goals
Grant Program                       Grants (millions)                   Goals          Goals     Met
Programs without Performance Criteria
Community-Based Job Training              9 $16.3                              0              9         64
High Growth Job Training Initiative       4     7.0                            1              3         72
National Emergency Grants                 4   74.2                             1              3         27
Other – Research & Green Jobs             3     5.7                            2              1         71
Workforce Innovation & Regional
Economic Development Grants               2   19.9                             0             2          48
Subtotal                                22 $123.1                              4            18        57%
Program with Performance Criteria
SCSEP                                   16 $715.9                             16              0     110%

Total                                                  38 $839.0              20            18

Twenty-two of the 38 sampled grants consisted of Community-Based Job Training
(CBJT), High Growth (HG), NEGs, Research & Green Jobs grant, and Workforce
Innovation in Regional Economic Development (WIRED). See Exhibits 2-6 for grant
summaries for these programs. These discretionary programs all lacked written criteria
for defining acceptable performance, resulting in no basis for determining achievement.
Additionally, we identified 12 grantees that did not specify proposed performance goals
for one or more of the ETA common measures (see Tables 2 and 3).

CBJT

All 9 sampled CBJT grants, totaling $16.3 million, failed to achieve all of their
performance goals. CBJT grants are intended to improve the ability of community
colleges to train and prepare workers for employment in high growth and other
emerging industries. Their goals consisted of training and placing participants into
employment, as well as developing curriculum and other training related deliverables.
Grantees fared better in achieving their training goals, as four of nine grants exceeded
their targets; however, only one grantee was able to meet its placement goal. Overall,

3
    Met indicates that grantees met all their performance goals.

                                                                                      Discretionary Grants
                                                       6                      Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


CBJT grantees struggled to meet their completed training goals because five of the nine
grants did not achieve their targets, while only 2 achieved their credential/degree goal.
Only one grantee achieved its placement goal, while the other eight grantees were
unable to use their training to obtain employment to the extent proposed in
high-growth/high-demand industries. Nonetheless, all sampled grants within the
program were certified as acceptable.

An on-site review was performed at Suffolk County Community College (SCCC). This
program served incumbent workers in the High Tech Manufacturing industry who
received skills upgrade through Mechatronics training. Specifically, the training was in
automation and control systems, tolerance, specifications and instrumentation, and
machining process. According to an SCCC official, the project received very positive
feedback from industry partners. However, this grantee did not keep records to track
employers’ satisfaction. In addition, our review revealed that this grantee achieved its
goals in regard to training incumbent workers, with the exception of the following
outcomes: 1) training targets for dislocated workers were not met, and 2) participants
were provided completion certificates, rather than industry recognized certifications. Per
the grant agreement, this grantee would develop 6-month and 1-year,
industry-recognized, advanced manufacturing certifications.

The table on the following page shows the achievement of outcomes/deliverables for
sampled CBJT grants.




                                                                            Discretionary Grants
                                            7                       Report No. 02-13-201-03-390
                                                                 U.S. Department of Labor – Office of Inspector General



TABLE 2: SUMMARY OF KEY MEASURES FOR SAMPLED CBJT GRANTS
                                 Began     Completed       Credential/                                    Curriculum       *** Capacity
         Grantee/ Award       Training*     Training*         Degree*        Placed*      Retention*     Development           Building
Suffolk County Community College – $2.4 million
      Proposed:              --       400         315           --                                  --             2               2
         Actual:             --       342           **          --                                  --             2               2
         % Met:              --      86%          0%            --                                  --          100%            100%
Washtenaw Community College – $2.1 million
      Proposed:         1,500      1,500            --        360                                804               1               6
         Actual:        4,719      4,719        4,509         173                                  --              1               6
         % Met:         315%       315%             --       48%                                 0%             100%            100%
University of Arkansas System Community College – $2.0 million
      Proposed:           746         746         746         373                                   --             1               3
         Actual:        1,961       1455         1425         268                                   --             1               3
         % Met:         263%       195%         191%         72%                                    --          100%            100%
The Junior College District of Kansas City - Missouri – $1.9 million
      Proposed:           300         225         225         225                                   --             5               3
         Actual:          357         270         268         169                                   --             5               3
         % Met:         119%       120%         119%         75%                                    --          100%            100%
Athens Technical College – $1.9 million
      Proposed:           343         302         302         257                                218                4              6
         Actual:          257         102         102          86                                 58                2              6
         % Met:          75%         34%         34%         33%                                27%               50%           100%
Midlands Technical College – $1.6 million
      Proposed:           429         309         309         275                                   --             1               1
         Actual:          503         185         209         279                                   --             1               1
         % Met:         117%         60%         68%       102%                                     --          100%            100%
Palm Beach Community College – $1.5 million
      Proposed:           460         460         345           --                                  --             1               3
         Actual:          365         293          35           --                                  --             1               3
         % Met:          79%         64%         10%            --                                  --          100%            100%
UAM College of Technology McGehee – $1.5 million
      Proposed:             90         70          70          69                                   --             1                 --
         Actual:            84         44          43          17                                   --             1                 --
         % Met:          93%         63%         61%         25%                                    --          100%                 --
Yavapai College – $1.3 million
      Proposed:           140         112         112         112                                   --             6               3
         Actual:          571         571          71          79                                   --             6               3
         %Met:          408%       510%          63%         71%                                    --          100%            100%

   --      Proposed targets not included in grant agreement and/or results not reported by grantee.
   *       Required performance goals as stated in SGAs.
   **      Workers received certifications; however, certifications were not industry recognized, OIG deemed deliverable not met.
   ***     Equipment purchases and or infrastructure development to increase the grantee’s ability to provide services to the
           success of participants.




                                                                                                         Discretionary Grants
                                                                   8                             Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


HG

The four HG grants in our sample totaled $7 million. Three of the four grants failed to
achieve all of their performance goals related to participant placement and delivering
required curricula. HG grants are part of a Presidential initiative preparing workers to
take advantage of new and increasing job opportunities in high growth, high demand,
and economically vital sectors of the American economy. Part of the HG program’s
mission is to establish demand-driven job training and related projects, which are
designed to meet employer-defined workforce challenges. Goals for HG grants
consisted of training and placing participants into employment, as well as developing
curriculum and other training related deliverables. One of three grants did not achieve
its placement goal, and two did not have specific targets for the number of participants
to be placed.

An on-site review was performed at one grantee – the Rochester Institute of Technology
(RIT). This grant was intended to solve the workforce challenges facing the advanced
food and beverage manufacturing cluster of the New York Finger Lakes Region by
expanding the regional capacity to train and educate the advanced food and beverage
manufacturing workforce. A workforce development partnership was formed between
the local Workforce Investment Boards, local manufacturers and distributors, Monroe
Community College, and RIT. Our review revealed that RIT focused its training efforts
on incumbent workers and that training and placement targets for youths and dislocated
workers were not achieved.

The table on the following page shows the achievement of outcomes/deliverables for
sampled HG grants.




                                                                            Discretionary Grants
                                            9                       Report No. 02-13-201-03-390
                                                   U.S. Department of Labor – Office of Inspector General



TABLE 3: SUMMARY OF KEY MEASURES FOR SAMPLED HG GRANTS
                          Began    Completed    Credential/                           Curriculum   Capacity
Grantee/ Award         Training*    Training*      Degree*    Placed*   Retention*   Development   Building


Met Goals
Alabama Department of Economic & Community Affairs – $2.8 million
     Proposed:          350        *          *        265                      --            **         **

        Actual:       1,705    1,130       681         468                      --            **         **
        % Met:        487%     323%      195%        177%                       --            **         **


Not Met Goals
CBIA – $1.8 million
      Proposed:              370         320         240           --           --           2           --
        Actual:              851         456         444          28            --           2           --
          % Met:          230%         143%        185%            --           --        100%           --
Virginia Biotechnology Association – $1.5 million
       Proposed:             250         250         120           --           --           1         3
          Actual:            226         226          54           --           --           1         3
          % Met:            90%         90%         45%            --           --        100%      100%
Rochester Institute of Technology – $0.9 million
       Proposed:               --        775         150        175           175            3         5
          Actual:              --        534         162           0            0            3         5
          % Met:               --       69%        108%          0%           0%          100%      100%
   -- Proposed targets not included in grant agreement and results not reported by grantee.
   * Required performance goals as stated in SGAs.
   ** Measure not applicable to this grant.


NEGs

The sample included four NEG grants, totaling $74.2 million. NEGs are not competitive
grants, but rather are awards that are based on a need to temporarily expand the
service capacity for WIA Dislocated Worker training and employment programs at the
state and local levels. These grants provided funding assistance in response to large,
unexpected economic events that caused significant job losses (for example, natural
disasters, economic devastation, mass layoffs, etc.). However, performance
certifications were not conducted for these grants, and based on reported results, we
found that 3 of the 4 NEGs did not achieve all their goals. Goals for our sampled grants
consisted of intensive services (for example, comprehensive assessments, individual
and group counseling, career planning and development, and placement) and
supportive services, (for example, transportation and childcare).

According to ETA officials, NEGs are a direct response to triggering events, each of
which is unique, and grants are monitored throughout the life of the grant. They also
stated that a formal performance certification is not warranted in light of changing needs
and local circumstances that drive the actions. Based on our review, ETA had controls
that provided some assurance regarding the level of grantee funding. Grantees are
presented with an initial award amount and an approved threshold amount. ETA may

                                                                                    Discretionary Grants
                                                     10                     Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


incrementally increase funding up to the threshold, once they have completed a full
assessment of the actual needs served by the grant.

Our sample included the Louisiana Workforce Development grant, which served areas
impacted by Hurricane Katrina and created temporary jobs to assist in the cleanup,
humanitarian activities, and restoration efforts. The grant’s funding was incrementally
increased on various occasions, as additional need for the project was required.
Another sampled grant awarded to the Oregon Department of Community College &
Workforce Development was intended to serve 75 workers who were
trade-act certified. The awarded funds provided co-enrollment services, including case
management and supportive services, while workers pursued training plans over a two
year period.

Our sample contained one instance where the need had not materialized as expected,
and funds were de-obligated and returned to the Treasury. This grant to the State of
Washington Employment Security Department was to employ 123 people for flood
cleanup assistance. Once the grant was implemented, the actual number of persons
needed for the effort was 36, or 29 percent, of the initial estimate. The grantee’s
spending was proportional to actual services provided, as it expended $200,616, or 29
percent, of its $700,000 grant award.

Nonetheless, we believe that some evaluation standard should be used to determine
the extent to which grant objectives in the grant agreement have been achieved. The
following table shows the achievement of outcomes/deliverables for sampled NEGs.

 TABLE 4: SUMMARY OF KEY MEASURES FOR SAMPLED NEG GRANTS
                          Received      Received      Employed in                        Regional
                          Intensive    Supportive   Disaster Relief                      Strategic
 Grantee/ Award            Services      Services      Assistance          Placed             Plan
 Met Goals
 Minnesota Department of Employment & Economic Development – $0.2 million
          Proposed:                   **        **           **           **                  1
             Actual:                  **        **           **           **                  1
             % Met:                   **        **           **           **               100%
 Not Met Goals
 Louisiana Workforce Commission – $73.3 million
          Proposed:             17,150     3,565         6,420      15,300                     **
             Actual:            13,100     3,192         6,261       8,860                     **
             % Met:               76%        90%          98%          58%                     **
 Oregon Department of Community Colleges & Workforce Development – $0.5 million
          Proposed:                  75        75            **          64                    **
             Actual:                 85        72            **          32                    **
             % Met:              113%        96%             **        50%                     **
 Washington Employment Security Department – $0.2 million
          Proposed:                   **        **         123            **                   **
             Actual:                  **        **          36            **                   **
             % Met:                   **        **        29%             **                   **
  ** Measure not applicable to this grant.

Other Programs – Research & Green Jobs Grants

                                                                              Discretionary Grants
                                            11                        Report No. 02-13-201-03-390
                                             U.S. Department of Labor – Office of Inspector General




The sample also contained 2 research grants totaling $5.6 million and 1 ARRA Green
Jobs grant award for $0.1million. The research grants fulfilled their goals, while the
Green Jobs grant did not meet all of its targets. The following table shows the
achievement of outcomes/deliverables for these grants.

 TABLE 5: SUMMARY OF KEY MEASURES FOR OTHER SAMPLED PROGRAMS
                          Completed                    Instructors     Curriculum
 Grantee/ Award             Training        Placed    Participating   Development        Research
 Office of Policy Development & Research
 MDRC – $5.5 million
           Proposed:                 **         **            **               **              1
              Actual:                **         **            **               **              1
              % Met:                 **         **            **               **           100%
 WE Upjohn Institute for Employment Research – $0.1 million
           Proposed:                 **         **            **               **              1
              Actual:                **         **            **               **              1
              % Met:                 **         **            **               **           100%
 Green Jobs (ARRA)
 Latin American Youth Center – $0.01 million
           Proposed:              100          70              4              2                 **
              Actual:               89         45              4              2                 **
              % Met:             89%         64%           100%            100%                 **
 ** Measure not applicable to this grant.


WIRED

There were two WIRED grants, totaling $19.9 million, in our sample. The WIRED
initiative is a federal program designed to encourage regional collaboration among
public and private entities to develop a more highly skilled workforce in order to attract
economic development and jobs in the region. The performance results for these two
grants were mixed. One grant met all of its training and employment goals, but fell short
of its economic development goals by only meeting 18 percent of its other deliverables.
The other grant failed to achieve the program’s intent of training and placing individuals
because it achieved only 22 percent of its completed training and employment goals;
however, the grant met 100 percent of its deliverables.

The table on the following page shows the achievement of outcomes/deliverables for
sampled WIRED grants.




                                                                              Discretionary Grants
                                              12                      Report No. 02-13-201-03-390
                                                 U.S. Department of Labor – Office of Inspector General




TABLE 6: SUMMARY OF KEY MEASURES FOR SAMPLED WIRED GRANTS
                      Began      Completed    Credential/                          Curriculum
Grantee/ Award       Training*    Training*      Degree*    Placed*   Retention   Development     Other

Met Goals
Indiana Department of Workforce Development – $14.9 million
      Proposed:        8,768     6,117        690      2,510                 **           1         17
         Actual:      25,351    16,355      1,860      3,631                 **           1          3
         % Met:        289%      267%       270%       145%                  **        100%       18%

Not Met Goals
Michigan Department of Labor – $5.0 million
     Proposed:       11,394     11,394              145        360           **           1         6
        Actual:       2,907       2,451             187         78           **           1         6
        % Met:          26%        22%            129%        22%            **        100%      100%

  * Required performance measures as stated in SGAs.
  ** Measure not applicable to this grant.

SCSEP grants

The sample contained sixteen SCSEP grants, totaling $715.9 million, and all achieved
their performance goals. SCSEP is a community service and work-based training
program intended for low-income, unemployed persons 55 or older with poor
employment prospects, (see Exhibit 1, Performance Results for Sampled Grants –
Summary of SCSEP Grants portion). The program provides subsidized, service-based
training. Program funding is allocated by a formula, with 22 percent of funds allocated
among the states and territories, and 78 percent to national organizations that compete
to provide services.

SCSEP follows standards for determining whether grantees meet the expected levels of
performance, whereby grantees are measured against proposed targets for six core
indicators: Community Service, Entered Employment, Employment Retention, Average
Earnings, Service Level, and Service to Most in Need. Grantees that do not meet the
expected level of performance in a program year are provided technical assistance and
must submit a corrective action plan to ETA. The standards require calculation of an
aggregate average of the core indicators as shown below.

20 CFR Part 641, Provisions Governing the Senior Community Service Employment
Program Section 641.740(a), states:

        Aggregate calculation of performance . . . The aggregate is calculated by
        combining the percentage of goal achieved on each of the individual core
        indicators to obtain an average score. A grantee will fail to meet its
        performance measures when it does not meet 80 percent of the
        agreed-upon level of performance for the aggregate of all the core
        indicators. Performance in the range of 80 to 100 percent constitutes
        meeting the level for the core performance measures. Performance in

                                                                                  Discretionary Grants
                                                   13                     Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


       excess of 100 percent constitutes exceeding the level for the core
       performance measures.

Based on the above criteria, all sampled SCSEP grants exceeded 80 percent of the
aggregate average of all core indicators. However, sample results also indicated that
using the aggregate average favorably skewed overall performance, but masked low
performance in other core indicators. This is most evident in Program Year 2009,
whereby grantees exceeded their Service Level targets by an average of 75 percent,
which skewed overall performance. Service level captures the participants’ turnover rate
within the grant program year. It is calculated by taking the number of participants active
at any time during the reporting period divided by number of positions funded by the
grant for one full-year.

Performance Results not used in Future Grant Investments

ETA did not demonstrate that grantees’ final performance results were used in the
pre-award phase to improve future grant investments. ETA did not follow ETO 1-08,
which stipulates that one of the goals of the closeout phase requires that “…information
regarding grantee performance and management is analyzed and the results are used
in the pre-award phase to inform future grant design and investments.”

The vetting process used by ETA in the pre-award phase did not evaluate potential
grantees on past performance results because ETA had not included past performance
as criteria in its SGAs. This was because ETA had not considered a need to develop
and implement a process to ensure information about grantee performance was
captured during the closeout phase and used for future grant design and investments.
This information is relevant as many discretionary grants are awarded competitively.
However, ETA did consider prior negative financial issues of prospective grantees to
prevent the awarding of future grants. Due to the lack of criteria in defining acceptable
performance and FPOs’ inconsistency in the evaluation of performance, ETA had not
used past performance as a means of screening prospective grantees. ETA
acknowledged this weakness and started including past performance criteria, beginning
with the evaluation of the Reintegration of Ex-Offenders’ SGAs in January 2012, as well
as SGAs for Grants Serving Juvenile Ex-Offenders, Serving Adult and Youth
Ex-Offenders Through Strategies Targeted to Characteristics Common to Female
Ex-Offenders, and YouthBuild 2012.

On March 4, 2011, OMB issued a draft of the Federal Awardee Performance and
Integrity Information System (FAPIIS), an online data warehouse that stores
performance information on grants and contracts over $500,000. FAPIIS was developed
to address requirements of the Duncan Hunter National Defense Authorization Act of
2009 (Public Law 110-417), enacted on October 14, 2008. Section 872 of this Act
required the development and maintenance of an information system that contains
specific information on the integrity and performance of covered federal agency
contractors and grantees. Based on discussions with ETA they are awaiting further
guidance on this initiative, before proceeding with any investments into additional


                                                                            Discretionary Grants
                                            14                      Report No. 02-13-201-03-390
                                          U.S. Department of Labor – Office of Inspector General


systems. They are currently using the System for Award Management which will in a
future phase, provide a FAPIIS portal. In addition, they are planning to use the Do Not
Pay List System to obtain pre-award information for use in decisions regarding potential
awardees.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

   1. Develop criteria for determining acceptable performance for discretionary grant
      programs that lack such criteria; and

   2. Implement a process that captures grantee performance results for use in future
      grant investments.

We appreciate the cooperation and courtesy that ETA personnel extended to the Office
of Inspector General during this audit. OIG personnel who made major contributions to
this report are listed in Appendix E.




Elliot Lewis
Assistant Inspector General
  for Audit




                                                                           Discretionary Grants
                                           15                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              16                      Report No. 02-13-201-03-390
           U.S. Department of Labor – Office of Inspector General




Exhibits




                                            Discretionary Grants
            17                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              18                      Report No. 02-13-201-03-390
                                                                   U.S. Department of Labor – Office of Inspector General


                                                                                   Exhibit 1- Performance Summaries
PERFORMANCE RESULTS FOR SAMPLED GRANTS
SUMMARY OF NON-SCSEP GRANTS
                                                               FINAL AWARD                                       GRANT GOALS
SEQ. GRANTEE                                                          (millions)       Met    Not Met   Indeterminable      Total     Percent Met
1        LA Workforce Commission                                        $73.3            0         5                --        5                0
2        WA Employment Security Dept.                                     0.2            0         1                --        1                0
3        UAM College of Technology                                        1.5            1         5                1         7               14
4        IN Dept. of Workforce Development                               14.9            8        14                --       22               36
5        OR Dept. of Community Colleges & Workforce Dev.                  0.5            2         2                --        4               50
6        Athens Technical College                                         1.9            8         8                --       16               50
7        Palm Beach Community College                                     1.5            5         3                2        10               50
8        Suffolk Community College                                        2.4            5         4                --        9               56
9        Latin American Youth Center                                      0.1            3         2                --        5               60
10       VA Biotech Associates                                            1.5            5         3                --        8               63
11       Rochester Institute of Technology                                0.9            9         5                --       14               64
12       Washtenaw Community College                                      2.1           11         5                --       16               69
13       MI Dept. of Labor                                                5.1            8         3                --       11               73
14       CBIA Education Foundation                                        1.8            6         0                2         8               75
15       Midlands Technical College                                       1.6            7         2                --        9               78
16       The Junior College District of Kansas City                       1.9           11         3                --       14               79
17       Yavapai College                                                  1.3           12         3                --       15               80
18       University Of Arkansas System of Community Colleges              2.0            8         2                --       10               80
19       MN Dept. of Emp. & Economic Dev.                                 0.2            1         0                --        1              100
20       WE Upjohn Institute for Employment Research                      0.1            1         0                --        1              100
21       AL Senior Services Economic & Community Affairs                  2.8            6         0                --        6              100
22       MDRC                                                             5.5            1         0                --        1              100
All goals not met – 18 grants                                          $114.5          109        70                5       184             59%
All goals met – 4 grants                                                 $8.6            9         0                --        9            100%
TOTAL – 22 grants                                                      $123.1          118        70                5       193             61%

SUMMARY OF SCSEP SAMPLED GRANTS
                                                                                                         AGGREGATE AVERAGE (%)*
                                                               FINAL AWARD
SEQ. GRANTEE                                                            (mil.)       PY ‘07    PY ‘08              PY ‘09              Combined
1     National Urban League                                              $2.0            --        --                 89                      89
2     VA Dept. for the Aging                                              0.5            --        --                 95                      95
3     SER- Jobs for Progress                                             33.0            --        --                100                     100
4     TN. Dept. of Labor and Workforce Development                        0.4            --        --                100                     100
5     Senior Service America                                           115.4           107        99                 108                     105
6     National Urban League                                              19.0          117        98                 108                     108
7     Commonwealth of PA                                                 10.4          115       100                 112                     109
8     Goodwill Industries                                                24.3          110       102                 117                     110
9     VA Dept. for the Aging                                              2.4            --        --                111                     111
10    Easter Seals                                                       36.9          129        98                 110                     112
11    AL Dept. of Senior Services                                         0.4            --        --                112                     112
12    Experience Works, Inc.                                           197.5           107       114                 122                     114
13    National Caucus of Black and Aged                                  30.2          109       109                 123                     114
14    AARP Foundation                                                  153.9           115       103                 128                     115
15    AARP Foundation                                                    87.1            --        --                128                     128
16    GA Dept. of Human Services                                          2.5            --        --                130                     130
SCSEP Summary – All 16 sampled grants met or exceeded *               $715.9         114%      103%                112%                    110%
SUMMARY OF ALL SAMPLED GRANTS
                                                               FINAL AWARD                     NON-
                                                                        (mil.)                SCSEP              SCSEP              ALL GRANTS
GOALS NOT MET                                                         $114.5                     18                  0                      18
MET GOALS                                                             $724.5                      4                 16                      20
ALL GRANTS                                                            $839.0                     22                 16                      38



                                                                                                          Discretionary Grants
                                                                    19                            Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              20                      Report No. 02-13-201-03-390
                                                               U.S. Department of Labor – Office of Inspector General


                Exhibit 2 – Sampled Community Based Job Training Grant Summaries
Suffolk County Community College                                                                 Initial Award: $2.4 million
November 1, 2005 to October 31, 2009                                                              Final Award: $2.4 million
Grant Overview/Objectives:

Suffolk County Community College is an educational institution that is part of the State University of New York system. The
grant was employer driven, and the college proposed to provide advanced manufacturing training to 300 incumbent workers on
Long Island, NY, over a 3-year period. The training project targeted shortage areas such as automation and control systems,
tolerance, specifications and instrumentation, and machining processes. Additionally, the program was intended to attract over
100 dislocated and non-traditional workers. From our analysis of the grant agreement and evidence obtained from grantee and
ETA officials, we identified nine outcomes/deliverables, four of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                         SOW              Actual               Met

1    Incumbents trained                                                              300                305               Yes

2    Incumbents receiving industry recognized certification                          240                   *               No

3    Dislocated workers, HS, & non-traditional college students trained              100                 37                No

4    Percent from #3 (above) receiving industry recognized certification              75                   *               No

5    Percent of firms expressing satisfaction in worker’s training skills           80%         Not Tracked                No

6    Incorporate existing curriculum into development of five skills-
     based, industry-led manufacturing training modules                              Yes          Delivered               Yes

7    Develop 6-month and 1-year industry-recognized advanced
     manufacturing certifications to address needs of industry partners              Yes          Delivered               Yes

8    Create outreach programs through partnerships with regional One-
     Stop target displaced, immigrant, and other emerging workers                    Yes          Delivered               Yes

9    Implement career ladder/track from K-12 to college-industry and K-
     12 outreach programs                                                            Yes          Delivered               Yes


* Workers received certifications; however, certifications were not industry recognized, OIG deemed deliverable not
met.




                                                                                                   Discretionary Grants
                                                                21                         Report No. 02-13-201-03-390
                                                              U.S. Department of Labor – Office of Inspector General




Washtenaw Community College                                                                        Initial Award : $2.2 million
January 1, 2007 to June 30, 2010                                                                    Final Award : $2.1 million
Grant Overview/Objectives:

Washtenaw Community College is an educational institution located in Ann Arbor, Michigan. The purpose of the three-year grant
was to build the technical capacity of nine community colleges in southeast Michigan to deliver advanced training and develop
unique Centers of Expertise in alternative energy and advanced manufacturing that integrate innovation competencies into
specialized programs and train workers in the skills required to succeed in high growth, high demand industries. The focus
industries of this grant were Advanced Manufacturing and Alternative Energy. From our analysis of the grant agreement; and,
concurrence obtained from grant officials, we identified 16 outcomes/deliverables, 5 of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                       SOW                Actual                Met

1    Served                                                                       1,500               4,719                Yes

2    Began training                                                               1,500               4,719                Yes

3    Completed training                                                           1500*               4,719                Yes

4    Received degree/certification                                                    *               4,509                Yes

5    Entered employment                                                             360                 173                 No

6    Employment Retention                                                           804                   **                No

7    Incumbents entered training-related employment                                  80                  ***                No

8    Incumbents’ skills upgraded                                                    890                  ***                No

9    Average earnings                                                           $12/hr.                   **                No

10   Develop innovation education modules for certification                         Yes           Delivered                Yes

11   Develop four Centers Of Expertise as resources for knowledge
     sharing between educational providers and industry partners                    Yes           Delivered                Yes

12   Develop a Center For Career Advancement in advanced
     manufacturing to build career awareness and define career
     pathways at all levels                                                         Yes           Delivered                Yes

13   Develop core innovations education modules for stand - alone
     certification programs                                                         Yes           Delivered                Yes

14   Purchase equipment & curriculum specific to the areas of
     expertise                                                                      Yes           Delivered                Yes

15   Identify lead subject matter experts for each Center of Expertise              Yes           Delivered                Yes

16   Hire a prototype and production lab instructor                                 Yes           Delivered                Yes


* Although proposed goal not provided, actuals exceeded participants served target; therefore, OIG deemed the goal was
met; therefore, OIG used the began training goal.

** Required performance measures as stated in SGAs

*** Per grantee, this goal was not tracked, as they stated that ETA was to track this goal.




                                                                                                   Discretionary Grants
                                                                22                         Report No. 02-13-201-03-390
                                                               U.S. Department of Labor – Office of Inspector General



University of Arkansas System Community                                                               Initial Award: $2.0 million
January 1, 2007 to June 30, 2010                                                                       Final Award: $2.0 million
Grant Overview/Objectives:

The grant was a consortium between 3 colleges – University of Arkansas Community College at Batesville, Ozarka College, and
Arkansas State University at Mountain Home – to expand existing allied health programs, cooperatively develop 6 new
professional programs, require Spanish training and use multiple delivery strategies to train/license 746 new health care
professionals over the 36 months. The colleges decided to focus on training for practical and registered nursing, certified nursing
assistant, respiratory therapy and Emergency Medical Services (EMS) /first responder programs. Initially, there was a plan to
include health information, but the colleges discovered that there was not a great student demand, nor a large employer market, so
focus shifted to the preceding, though some students did complete those programs. From our analysis of the grant agreement and
evidence obtained from grantee and ETA officials, we identified 10 outcomes/deliverables, 2 of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                         SOW                 Actual                 Met

1    Served                                                                           746                 1962                 Yes

2    Began training                                                                   746                 1961                 Yes

3    Completed training                                                               746                 1455                 Yes

4    Received degree/certificate                                                      746                 1425                 Yes

5    Entered employment                                                               373                  268                  No

6    Entered training-related employment                                              373                  177                  No

7    Various community colleges collaborate to develop a core
     curriculum in Nursing and Allied Health programs – Certified
     Nursing Assistant; Licensed Practical Nurse; Registered Nurse;
     EMS; Respiratory Care; Occupation Therapy; Health
     Information Technology; Medical Office management                                Yes            Delivered                 Yes

8    Recruitment and Outreach to local high schools                                   Yes            Delivered                 Yes

9    Require Spanish training as part of Health Skills core                           Yes            Delivered                 Yes

10   Begin online and night/weekend nursing programs                                  Yes            Delivered                 Yes




                                                                                                       Discretionary Grants
                                                                23                             Report No. 02-13-201-03-390
                                                                   U.S. Department of Labor – Office of Inspector General




The Junior College of Kansas City – Missouri                                                                   Initial Award: $2.0 million
November 1, 2005 to October 31, 2009                                                                           Final Award: $1.9 million
Grant Overview/Objectives:

The grant funded the Making It In KC initiative, which addressed the regional shortage of qualified entry-level workers by expanding the
training program components of the Manufacturing Job-Ready Program. This training program was proposed as a 256-hour,
industry-validated, credential modular curriculum. From our analysis of the grant agreement and evidence obtained from the grantee and
ETA officials, we identified 14 outcomes/deliverables, 3 of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                                   SOW                Actual                Met

1    Admitted                                                                                   300                 357                Yes

2    Completed Training                                                                         225                 270                Yes

3    Received Credentials                                                                       225                 268                Yes

4    Entered training-related employment.                                                       225                 169                    No

5    1-year retention rates will be 50% higher than that of non-participants                   Yes                     *                   No

6    Hired at hourly wages 5-10% higher than that of non-participants.                         Yes                     *                   No

7    Increase industry partners by 50%                                                         Yes            Delivered                Yes

8    Manufacturing Job-Ready Program (MJ-RP) will be self-sustaining by its
     fourth year                                                                               Yes            Delivered                Yes

9    Develop and refine the MJ-RP                                                              Yes            Delivered                Yes

10   Introduce MJ-RP modular, off-schedule, short-term program.                                Yes            Delivered                Yes

11   Improve & expand placement processes for all programs                                     Yes            Delivered                Yes

12   Develop career information and program marketing materials                                Yes            Delivered                Yes

13   Develop the Making It In KC initiative to raise community awareness                       Yes            Delivered                Yes

14   4-day Introduction to Lean Manufacturing Workshop                                         Yes            Delivered                Yes



* Required performance measures as stated in SGAs. Per grantee this goal was not tracked, as they stated it would be
tracked by ETA.




                                                                                                              Discretionary Grants
                                                                    24                                Report No. 02-13-201-03-390
                                                                 U.S. Department of Labor – Office of Inspector General




Athens Technical College                                                                                 Initial Award: $2.0 million
January 1, 2007 to June 30, 2010                                                                          Final Award: $1.9 million
Grant Overview/Objectives:

Athens Technical College is an educational institution located in Athens, GA. The grant’s objective was to increase the number of
bioscience professionals entering the workforce. From our analysis of the grant agreement and evidence obtained from the
grantee and ETA officials, we identified 16 outcomes/deliverables, 8 of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                         SOW                Actual                  Met

1    Began training                                                                   343                  257                  No

     Percent completing a degree or certificate earning state-
2    recognized credentials.                                                          302                  102                  No

3    Entered employment                                                               257                   86                  No

4    Entered training-related employment                                              218                   58                  No

5    Employment retention                                                             218                   58                  No

6    Average earnings (2 quarters, for those retained)                           $15,000         Not Provided                   No

7    Develop a new curriculum (Careers in Biotechnology
     Presentation and outreach material; Gwinnet Tech Regulatory
     Course Compliance Curriculum and Course materials; Athens
     Tech Regulatory Compliance Courses Curriculum and Course
     Materials).                                                                      Yes           Delivered                  Yes

8    Establish a bioscience education and workforce training center
     that serves as a career ladder point of contact.                                 Yes           Delivered                  Yes

9    Equip laboratory facilities and staff to accommodate larger
     numbers of students and expand instructional capacity.                           Yes            Delivered                 Yes

10   Develop industry-specific training modules for employees and
     technicians.                                                                     Yes        Not Delivered                  No

11   Provide biotechnology skills training and facilities for high
     school science teachers (6-8 HS teachers from each year from
     various local school systems in the summers).                                    Yes            Delivered                 Yes

12   Provide access to career pathways and ladder opportunities for
     postsecondary students and technicians.                                          Yes           Delivered                  Yes

13   Increase availability of weekend and evening programs for
     student flexibility and use distance e-learning.                                 Yes            Delivered                 Yes

14   Provide labs and facilities for recruitment and training.                        Yes            Delivered                 Yes

15   Offer short-term training modules for companies in need of new
     employee education or incumbent employee growth
     opportunities.                                                                   Yes        Not Delivered                  No

16   Provide biotechnology-based curriculum and laboratory training
     for rising 11th and 12th grade high school students.                             Yes            Delivered                 Yes




                                                                                                      Discretionary Grants
                                                                   25                         Report No. 02-13-201-03-390
                                                                U.S. Department of Labor – Office of Inspector General




Midlands Technical College                                                                                Initial Award: $1.9 million
November 1, 2005 to December 31, 2009                                                                      Final Award: $1.6 million
Grant Overview/Objectives:

Midlands Technical College is a community college located in Columbia, South Carolina. In association with Regional Health Care
Delivery System, and other organizations, the grant proposed to address the critical health care worker shortage facing the region.
From our analysis of the grant agreement and evidence obtained from the grantee and ETA officials, we identified nine
outcomes/deliverables, two of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                            SOW                 Actual                 Met

1    Served                                                                              429                  503                 Yes

2    Began training                                                                      429                  503                 Yes

3    Completed training                                                                  309                  185                     No

4    Received degree/certificate                                                         309                  209                     No

5    Entered employment                                                                  275                  279                 Yes

6    Entered training-related employment                                                  55                  150                 Yes

7    Participants w/ 6-month wage increase from $14.38 to $25.87/hr.                      55                  414                 Yes

8    Entry - Level Career Ladder                                                         Yes            Delivered                 Yes

9    CNA curriculum and materials                                                        Yes            Delivered                 Yes




                                                                                                        Discretionary Grants
                                                                 26                             Report No. 02-13-201-03-390
                                                               U.S. Department of Labor – Office of Inspector General




Palm Beach Community College                                                                          Initial Award: $1.6 million
November 1, 2005 to October 31, 2009                                                                   Final Award: $1.5 million
Grant Overview/Objectives:

For Palm Beach Community College, the primary objective of the grant was to develop its Construction Skills-on Demand Program,
and to provide affordable and practical technical education to benefit the vocational needs of the Western Palm Beach County,
Glades Region in Florida. From our analysis of the grant agreement and evidence obtained from the grantee and ETA officials, we
identified ten outcomes/deliverables, three of which were not met, and the status of two could not be determined.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                         SOW                Actual                Met

1    Served                                                                           460                 365                 No

2    Trained                                                                          460                 293                 No

3    Completion rate for dual-enrollment enrollees                                   80%                 95%                 Yes

4    Completers for PSAV, CCC, and AS/AAS enrollees                                   345                  35                 No

5    Entered employment                                                                 *                   *                     *

6    Entered training-related employment (annually)                                    75                   **                    **

7    Establish a construction career ladder based on the PSAV
     certificate and CCC programs, culminating in an AS/AAS degree                    Yes           Delivered                Yes

8    Create a Glades Area Construction to train 100 students annually                 Yes           Delivered                Yes

9    Develop a new data system to monitor participant outcomes                        Yes           Delivered                Yes

10   Disseminate best practices to local, state and national education,
     business/industry and workforce institutions                                     Yes           Delivered                Yes


* Required performance measures as stated in SGAs. However, no proposed data was provided; therefore, a
determination on goal achievement could not be made.

** Listed as a goal, but no data was provided; therefore, a determination on goal achievement was not made.




                                                                                                    Discretionary Grants
                                                                 27                         Report No. 02-13-201-03-390
                                                              U.S. Department of Labor – Office of Inspector General




UAM College of Technology – McGehee                                                                   Initial Award: $1.6 million
November 1, 2005 to September 30, 2009                                                                 Final Award: $1.5 million
Grant Overview/Objectives:

The University of Arkansas Monticello College of Technology – McGehee proposed to provide training to participants entering the
Timber industry within the State of Arkansas; and, subsequently a construction industry training component was added via a grant
modification From our analysis of the grant agreement and evidence obtained from the grantee and ETA officials, we identified
seven outcomes/deliverables, five of which were not met, and the status of one could not be determined.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                         SOW                Actual                 Met

1    Enrolled                                                                          90                  84                  No

2    Began training                                                                    90                  84                  No

3    Completed training                                                                70                  44                  No

4    Received degree/certificate                                                       70                  43                  No

5    Entered employment                                                                  *                 17                      *

6    Entered employment – for graduated participants                                   69                  17                  No

7    Curriculum development                                                           Yes            Delivered                Yes


* Required performance measures as stated in SGAs. However, data was not provided; therefore, a determination on
goal achievement was not made.




                                                                                                     Discretionary Grants
                                                               28                            Report No. 02-13-201-03-390
                                                             U.S. Department of Labor – Office of Inspector General




Yavapai College                                                                                       Initial Award: $1.4 million
January 1, 2007 to December 31, 2009                                                                   Final Award: $1.3 million
Grant Overview/Objectives:

Yavapai College proposed to recruit participants for training in the allied health programs such as medical assistants, pharmacy
technicians, respiratory therapists, and medical radiography technicians. From our analysis of the grant agreement and evidence
obtained from the grantee and ETA officials, we identified 15 outcomes/deliverables, 3 of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                        SOW                Actual                 Met

1    Served                                                                          140                 571                 Yes

2    Began training                                                                  140                 571                 Yes

3    Completed training                                                              112                 571                 Yes

4    Received degree/certificate                                                     112                   71                 No

5    Entered employment                                                              112                   79                 No

6    Entered training-related employment                                             112                   43                 No

7    Medical Assistance Program development                                          Yes            Delivered                Yes

8    Pharmacy Technical Program development                                          Yes            Delivered                Yes

9    Phlebotomy Program development                                                  Yes            Delivered                Yes

10   Radiologic Technology Program development                                       Yes            Delivered                Yes

11   Medical Records Technician Certificate Program development                      Yes            Delivered                Yes

12   Medical Coding Certificate Program Sequence; Medical Coding
     Certificate Program Plan                                                        Yes            Delivered                Yes

13   Allied Health Student Handbook                                                  Yes            Delivered                Yes

14   ITV Room Equipment Guidelines & Standards                                       Yes            Delivered                Yes

15   Recruit and retain interested community marketing efforts,
     career fairs at schools, and summer health camps                                Yes            Delivered                Yes




                                                                                                     Discretionary Grants
                                                                  29                         Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              30                      Report No. 02-13-201-03-390
                                                               U.S. Department of Labor – Office of Inspector General


                                                 Exhibit 3 – Sampled High Growth Grant Summaries
Alabama Dept. of Economic & Community                                                                 Initial Award : $3.0 million
September 6, 2005 to September 4, 2009                                                                  Final Award : $2.8 million
Grant Overview/Objectives:

The Alabama Department of Economic and Community Affairs grant purpose was to provide job training of individuals impacted
by Hurricane Katrina in high growth, high demand industries critical to the economic recovery of the Gulf Region. Additionally, the
grantee proposed that at least 75 percent of the funds would be used for training. From our analysis of the grant agreement and
evidence obtained from the grantee and ETA officials, we identified 6 outcomes, all of which were met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                          SOW                 Actual                 Met

1    Served                                                                            350                 1699                 Yes

2    Began training                                                                    350                 1705                 Yes

3    Completing training                                                                  *                1130                 Yes

4    Received degree/certificate                                                          *                 681                 Yes

5    Entered employment                                                                265                  468                 Yes

6    Entered training-related employment                                               189                  345                 Yes


* Required performance measures as stated in SGAs. Although the proposed goals for these measures were not
provided, the actual number of participants reported exceeded the participants served goal; therefore, OIG deemed the
goal was met.




                                                                                                       Discretionary Grants
                                                                31                             Report No. 02-13-201-03-390
                                                             U.S. Department of Labor – Office of Inspector General


CBIA Education Foundation                                                                            Initial Award: $1.8 million
November 1, 2006 to March 31, 2010                                                                   Final Award: $1.8 million
Grant Overview/Objectives:

The Connecticut Business & Industry Association Foundation grant was to provide two distinct two-course certificate programs,
one in lean manufacturing and one in supply chain management. It also was to provide training for incumbent workers, community
college students, and retraining individuals From our analysis of the grant agreement and evidence obtained from the grantee and
ETA officials , we identified 8 outcomes/deliverables, 6 of which were met, 2 of which the status of goal attainment was
indeterminable.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                        SOW                Actual                Met

1    Served                                                                          370                 851                Yes

2    Began training                                                                  370                 851                Yes

3    Completed training                                                              320                 456                Yes

4    Received degree/certificate                                                     240                 444                Yes

5    Entered employment                                                                *                  28                   *

6    Entered training-related employment                                              **                  28                   **

7    Develop a continuous improvement and supply chain
     management certificate program                                                 Yes           Completed                 Yes

8    Develop a certificate program with two courses                                 Yes           Completed                 Yes


* Required performance measures as stated in SGAs. However, proposed data not provided; therefore, a determination
on goal achievement could not be made.

** Listed as a goal, but no proposed data was provided; therefore, a determination on goal achievement was not made.




                                                                                                    Discretionary Grants
                                                              32                            Report No. 02-13-201-03-390
                                                                 U.S. Department of Labor – Office of Inspector General




Virginia Biotechnology Association, Inc.                                                                 Initial Award: $1.5 million
November 1, 2006 to October 31, 2009                                                                      Final Award: $1.5 million
Grant Overview/Objectives:

The Virginia Biotechnology Association, Inc. grant was to create an industry recognized exam and credential system for two types of
advanced manufacturing jobs within the State of Virginia – manufacturing technician and manufacturing specialist From our analysis of
the grant agreement and evidence obtained from the grantee and ETA officials, we identified 8 outcomes/deliverables, 3 of which were
not met.
Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                             SOW              Actual                 Met

1    Served                                                                             250                 610                Yes

2    Began training                                                                     250                 226                 No

3    Completed training                                                                 250                 226                 No

4    Received degree/certificate                                                       120                   54                 No

5    Develop VCATS Level I certifications and assessment for
     manufacturing technicians                                                          Yes           Delivered                Yes

6    Develop VCATS online course for level 1 technical content                          Yes           Delivered                Yes

7    Develop VCATS Level I course outreach materials                                    Yes           Delivered                Yes

8    Establish a statewide certification system for manufacturing
     technicians and comparison of standards                                            Yes           Delivered                Yes




                                                                                                       Discretionary Grants
                                                                    33                         Report No. 02-13-201-03-390
                                                                      U.S. Department of Labor – Office of Inspector General




Rochester Institute of Technology                                                                    Initial Award: $1.2 million
November 1, 2006 to October 31, 2009                                                                 Final Award: $0.9 million
Grant Overview/Objectives:

Rochester Institute of Technology partnered with various organizations within the Finger Lakes Region of upstate New York in
order to develop courses and train both youth and incumbent workers within the food and beverage manufacturing industry. As
part of this initiative the following courses were developed: Lean/Six Sigma, Reliability Maintenance, Product and Process
Identification and Design. Occupational Safety and Health, and Manufacturing Processes. Training was geared to provide college
credit-bearing certificate courses through program. From our analysis of the grant agreement and evidence obtained from the
grantee and ETA officials, we identified 14 outcomes/deliverables, 5 of which were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                            SOW            Actual                Met

1    Incumbent/adult workers trained                                                    600              534                 No

2    Youths trained                                                                     175                0                 No

3    Applied training credits to attain college level certificates,
     diplomas or degrees                                                                150              162                Yes

4    Entered employment training-related employment – adult
     unemployed                                                                        100%                0                 No

5    Entered employment – youth                                                         175                0                 No

6    Employment retention                                                               175                0                 No

7    Assemble a broad based regional industrial advisory board for
     training programs in advance food and beverage manufacturing                       Yes         Delivered               Yes

8    Identity and repurpose existing manufacturing training material
     to suit needs of advanced food and beverage manufacturers                          Yes         Delivered               Yes

9    Develop and define a career lattice for progression into the food
     and beverage manufacturing environment                                             Yes         Delivered               Yes

10   Develop training and undergraduate college-level courses in
     information technology, sensing technologies, advanced food
     packaging, GIS/GPS, and quality assurance – 3 new training
     programs proposed in each year of the ETA grant                                    Yes         Delivered               Yes

11   Develop 3 new certificate programs, and 12-16 courses
     developed and validated by the Institute's industrial advisory
     board                                                                              Yes         Delivered               Yes

12   Convert training programs for online/distance learning delivery                    Yes         Delivered               Yes

13   Create the portal and website and link it to the regional WIB
     network                                                                            Yes         Delivered               Yes

14   Percent of the programs validated by the advisory board will be
     made available in online formats                                                   30%         Delivered               Yes




                                                                                                       Discretionary Grants
                                                                       34                      Report No. 02-13-201-03-390
                                                               U.S. Department of Labor – Office of Inspector General


                                     Exhibit 4 – Sampled National Emergency Grant Summaries
Louisiana Workforce Commission                                                                         Initial Award: $20.7 million
August 29, 2005 to December 31, 2009                                                                    Final Award: $73.3 million
Grant Overview/Objectives:

The Louisiana Workforce Commission was originally awarded the grant to create approximately 10,000 temporary jobs to assist in
cleanup, humanitarian activities, and restoration efforts as a result of the Hurricane Katrina disaster that occurred on
August 28-29, 2005. ETA initially awarded a grant of $20,700,000 to the State of Louisiana Workforce Commission (formerly
Department of Labor) for the grant period August 29, 2005, to August 31, 2006. ETA made several grant modifications to increase
the funding to $73,642,093 and to extend the grant period. Firstly, it approved a modification to the grant to include Hurricane Rita
dislocation costs.

Funding was approved in increments until it reached the $62,100,000 in January 2006. In May and July 2006, ETA approved
additional funding for $1,042,093. In November 2007, ETA approved additional $10.5 million in funds and extended the grant
period until June 30, 2008. Two additional grant period extensions were approved - in May 2008, to June 30, 2009, and in
August 2009, to December 31, 2009. The State of Louisiana provided almost all funds to local governments to provide temporary
employment assistance and other services for residents temporarily displaced.

From our analysis of the grant agreement and evidence obtained from the grantee and ETA officials, we identified five
outcomes/deliverables, none of which were met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                           SOW                 Actual                 Met

1     Received intensive services                                                    17,150               13,100                  No

2     Received NEG funded supportive services                                         3,565                3,192                  No

3     Entered employment                                                             15,300                8,860                  No

4     Employed in temporary disaster relief                                           6,420                6,261                  No

5     Exiters                                                                        17,600                     *                 No


* Grantee could not produce a listing of participants; therefore, we determined goal was not met.




Oregon Dept. of Community Colleges & Workforce Development                                                Initial Award: $0.5 million
October 1, 2008 to September 30, 2010                                                                      Final Award: $0.5 million
Grant Overview/Objectives:

The Oregon Department of Community Colleges and Workforce Development was awarded the grant to assist workers affected by
the closure of a manufacturing plant. The plant workers were Trade Act program certified and the grantee proposed using the NEG
funds for co-enrollment services, including case management and supportive services. From our analysis of the grant agreement
and evidence obtained from the grantee and ETA officials, we identified four outcomes/deliverables, two of which was not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                             SOW                Actual                  Met

1    Received Intensive Services                                                           75                   85                 Yes

2    Received supportive services (NEG-funded only)                                        75                   72                  No

3    Exiters                                                                               75                   85                 Yes

4    Entered employment                                                                    64                   32                  No




                                                                                                        Discretionary Grants
                                                                 35                             Report No. 02-13-201-03-390
                                                              U.S. Department of Labor – Office of Inspector General


Washington State Employment Security Dept.                                                            Initial Award: $ 0.7 million
March 15, 2009 to April 10, 2010                                                                       Final Award: $ 0.2 million
Grant Overview/Objectives:

The Washington State Employment Security Department intended to employ individuals in flood restoration and prevention efforts.
however, due to lower than expected participation, the grantee spent $200,616. From our analysis of the grant agreement and
evidence obtained from the grantee and ETA officials, we identified one outcome, and it was not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                           SOW                Actual               Met

1    Employ individuals in flood cleanup work                                           123                   36               No




Minnesota Dept. of Employment & Economic Development                                                  Initial Award: $ 0.3 million
February 1, 2008 to December 31, 2009                                                                  Final Award: $ 0.2 million
Grant Overview/Objectives:

The Minnesota Department of Employment & Economic Development requested the grant to fund necessary services for
dislocated workers laid off as a result of major plant closures in the Northland Region of Minnesota. The grant was an NEG
Regional Innovation Grant (RIG). A RIG is a planning grant and the deliverable associated with a RIG is a Regional Strategic Plan.
The grantee provided us with a copy of their Regional Strategic Plan, a SWOT analysis, and we concluded that they successfully
met the terms of their grant.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                         SOW                Actual                 Met

1    Develop economic SWOT analysis of the Northeast Minnesota/
     Northwest Wisconsin Region                                                      Yes            Delivered                 Yes




                                                                                                      Discretionary Grants
                                                                36                            Report No. 02-13-201-03-390
                                                                  U.S. Department of Labor – Office of Inspector General


                                   Exhibit 5 – Sampled Research & Green Job Grant Summaries
MDRC (RESEARCH)                                                                                          Initial Award: $1.9 million
March 24, 2003 to September 30, 2009                                                                      Final Award: $5.5 million
Grant Overview/Objectives:

MDRC is a non-profit research firm created in 1974 by the U.S Department of Labor and five other federal agencies, together with
the Ford Foundation, to develop and manage national demonstrations of promising interventions for low-income populations, to
rigorously evaluate program impacts, and to widely communicate the results. The grantee proposed to develop a multi-year National
Work Support Center Demonstration in which the Department of Labor would serve as the lead federal agency with other public and
private funding sources. ETA awarded a grant of $1,900,000 to MDRC to provide research papers, and the grant was subsequently
modified several times to $5,500,000. The grantee provided us with copies of their research work, and we concluded that they
successfully met the terms of their grant.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                           SOW                 Actual                Met

1    Produce research papers related to the Federal Welfare-to-Work
     Program                                                                           Yes              Delivered               Yes




W.E. Upjohn Institute for Employment (RESEARCH                                                            Initial Award: $0.1 million
July 1, 2008 to June 30, 2009                                                                              Final Award: $0.1 million
Grant Overview/Objectives:

The grant’s objective was to research the use of Unemployment Insurance and Employment services by newly unemployed exits from
Temporary Assistance for Needy Families. The grantee provided us with copies of their research work, and we concluded that they
successfully met the terms of their grant.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                            SOW                 Actual                Met

     Produce research report titled, "Use of Unemployment Insurance
1
     and Employment Services by Newly Unemployed Leavers from
     Temporary Assistance for Needy Families."                                          Yes              Delivered               Yes



Latin American Youth Center Youth Build (GJ)                                                             Initial Award: $0.1 million
December 1, 2009 to November 30, 2010                                                                     Final Award: $0.1 million
Grant Overview/Objectives:

The Latin American Youth Center YouthBuild Public Charter School requested the grant to expand its existing YouthBuild program by
adding a Green Job training component – Your Role in the Green Environment curriculum – to its core vocational education offerings;
as well as, offering training tracks in HVAC deconstruction and energy auditing. From our analysis of the grant agreement and evidence
obtained from grantee and ETA officials, we identified two outcomes that were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                             SOW                  Actual               Met

1    Number of instructors projected to participate in capacity building
     activities                                                                               4                 4                 Yes

2    Trained                                                                              100                   89                  No

3    Entered employment                                                                      70                 45                  No

4    Expansion of existing YouthBuild curriculum to include the National
     Center for Construction Education and Research’s (NCCER) “Your
     Role in the Green Environment” curriculum                                           Yes              Delivered               Yes

5    Addition of new training tracks in the fields of heating, ventilation, and
     air conditioning (HVAC); deconstruction; and energy auditing                        Yes              Delivered               Yes




                                                                                                          Discretionary Grants
                                                                    37                            Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              38                      Report No. 02-13-201-03-390
                                                                             U.S. Department of Labor – Office of Inspector General


     Exhibit 6 – Sampled Workforce Investment & Regional Economic Development Grant Summary
Indiana Dept. of Workforce Development                                                                              Initial Award: $ 5.0 million
February 1, 2006 to January 31, 2010                                                                                 Final Award: $14.9 million
Grant Overview/Objectives:

ETA initially awarded a $5,000,000 grant to the State of Indiana Department of Workforce Development. The grant was managed by
Purdue University to work with sub-grantees to provide job training and placement. The grant had four overall goals: (1) Make business
entrepreneurship a vibrant, mainstream part of the region’s economic and educational culture; (2) Further develop regional cooperation
across multiple jurisdictions in North Central Indiana; (3) Nurture early-stage business ventures from start-up through survival and
success, creating direct and indirect employment; and, (4) Establish networks for peer support and learning for entrepreneurs and for
the community leaders and policy makers who support them. From our analysis of the grant agreement and evidence obtained from
the grantee and ETA officials, we identified 4 outcomes and 18 deliverables, of which 14 deliverables were not met.
Summary of Proposed and Actual Grant Outcomes

       Grant Outcomes/Deliverables                                                               SOW               Actual*                  Met

For the overall program develop the following items:
1     Program overview documents: guide, handbook, brochure, strategy, executive
      summary, research report, curricula and training modules, website process,
      timelines, transcript video                                                                 Yes            Delivered                  Yes

Training and Placement:
2     Began training                                                                             8,768             25,351                   Yes

3      Completed training                                                                        6,117             16,355                   Yes

4      Received degree/certificate                                                                690               1,860                   Yes

5      Entered training-related employment                                                       2,510              3,631                   Yes

For the NCI Entrepreneurial Collaborative:
6     Increase stage 1 businesses launched in region, & related job growth                        Yes            Delivered                  Yes

7      Increase stage 1 businesses that transition successfully to stage 2                        Yes         Not Reported                   No

8      Increase microenterprise start-ups by economically disadvantaged
       entrepreneurs in distressed communities                                                    Yes         Not Reported                   No

9      Increase business start-ups by youth below age of 25                                       Yes         Not Reported                   No

10     Increased funding for and participation in entrepreneurship programs                       Yes            Delivered                  Yes

11     Increased use of SBA for financing tools                                                   Yes         Not Reported                   No

For the NCI Next Practice Cluster Initiative:
12    Coherent vision for next generation manufacturing                                           Yes         Not Reported                   No

13     Increase in number of successfully retained or expanded businesses with the 3
       clusters                                                                                   Yes         Not Reported                   No

14     Increase in number of new innovation and sales alliances among cluster-
       member firms                                                                               Yes         Not Reported                   No

15     Increased enrollment at new Technical Middle college                                       Yes         Not Reported                   No

16     Increase number of regional college graduates who are recruited by NCI
       companies                                                                                  Yes         Not Reported                   No

17     Improved visibility for north central Indiana as emerging center for adv.
       manufacturing & agri-business.                                                             Yes            Delivered                  Yes

For the Maturity Matters Initiative (all goals apply to mature workers):
18    Increased enrollment and completion of training programs in high-skill, high
      wage growth occupations                                                                     Yes         Not Reported                   No

19     Increase enrollment and completion of training for low-skill, incumbent workers
       in declining industries                                                                    Yes         Not Reported                   No

20     Increase in the number of regional employers that use mature worker best                                  Not
       practices                                                                                  Yes        Reported                        No

21     Increase in full and part-time jobs retained or gained                                     Yes         Not Reported                   No

22     Increase wages                                                                             Yes         Not Reported                   No

    * Per grantee results not tracked, OIG deemed as not met.


                                                                                                                 Discretionary Grants
                                                                               39                        Report No. 02-13-201-03-390
                                                            U.S. Department of Labor – Office of Inspector General




Michigan Dept. of Labor                                                                            Initial Award: $0.1 million
May 1, 2006 to June 30, 2010                                                                        Final Award: $5.1 million
Grant Overview/Objectives:

The State of Michigan Department of Labor was awarded $100,000, which was funded with H-1B Non-immigrant petitioner FY 2006
funds. The grant amount was subsequently modified to $5,144,000 using multi-year H-1B Non-immigrant Petitioner funds. The
grant served the geographic area of Southeast Michigan, including Detroit. Grant Modification 10, approved by ETA on
February 24, 2010, changed the grant ending date by 5 months from January 29 to June 30, 2010, and significantly increased the
planned number of participants to be trained by 6,013 to 11,394. The State of Michigan did not request additional funds for the
increase in participants related to the modification. From our analysis of the grant agreement and evidence obtained from the
grantee and ETA officials, we identified 11 outcomes/deliverables, of which 3 were not met.

Summary of Proposed and Actual Grant Outcomes
Grant Outcomes/Deliverables                                                        SOW               Actual                Met

1    Participants who began workforce training                                   11,394               2,907                 No

2    Participants who completed workforce training                               11,394               2,451                 No

3    Participants who attained degree/certificate                                   145                 187                Yes

4    Participants placed in target industry                                         360                  78                 No

5    College graduate retention study                                               Yes            Delivered               Yes

6    My Life website                                                                Yes           Delivered                Yes

7    Intern in Michigan website                                                     Yes            Delivered               Yes

8    Global Detroit website                                                         Yes            Delivered               Yes

9    Demographic Analysis Report on Adults in SE Michigan                           Yes            Delivered               Yes

10   High School Students' Attitudes Towards Higher Education
     study                                                                          Yes            Delivered               Yes

11   Product and Technology Commercialization Curriculum                            Yes            Delivered               Yes




                                                                                                   Discretionary Grants
                                                                40                         Report No. 02-13-201-03-390
                                                        U.S. Department of Labor – Office of Inspector General


           Exhibit 7 – Sampled Senior Community Service Employment Program Grant Summary

              Community         Entered        Employment              Average                          Service to Most
PY              Service       Employment         Retention           Earnings ($)      Service Level        in Need
           Target Actual Target Actual Target Actual Target Actual                    Target   Actual    Target Actual
AARP FOUNDATION – $153.9 million
2007          85%     86.4%    42%   58.8%      66%      63.1%      6,803    6,875    162%    222.1%    Baseline   2.89
2008          75%     86.9%    55%   52.4%      64%      67.0%      7,151    7,465    175%    196.3%       3.17    2.74
2009          80%     88.7%    49%   50.7%      67%      64.2%      6,997    7,528    100%    243.4%       2.73    2.92
AARP FOUNDATION – $87.1 million
2009        80.0%     88.7%  48.6%   50.7%    66.8%      64.2%      6,997    7,528    100%    243.4%       2.73    2.92
COMMONWEALTH OF PENNSYLVANIA– $10.4 million
2007          82%     87.4%    31%   48.5%      65%      69.1%      6,803    6,552    162%    174.2%    Baseline   1.99
2008          85%     87.1%    48%   46.6%      69%      70.4%      6,491    6,110    175%    163.9%       2.27    2.55
2009          80%     86.2%    45%   50.0%      64%      61.2%      6,322    6,112    100%    160.2%       2.52    2.52
Easter Seals – $36.9 million
2007          77%     82.2%    24%   49.7%      61%      75.0%      6,803    7,156    162%    165.3%    Baseline   2.73
2008          77%     85.0%    46%   37.9%      72%      68.0%      6,989    7,372    159%    166.1%       2.94    2.61
2009          80%     81.1%    39%   38.6%      67%      66.3%      6,908    7,707    100%    156.5%       2.53    2.38
EXPERIENCE WORKS INC – $197.5 million
2007          85%     78.1%    42%   52.9%      58%      68.8%      6,724    6,176    162%    170.4%    Baseline   2.43
2008          74%     84.5%    53%   59.4%      57%      76.6%      6,323    6,303    156%    174.7%       2.73    2.99
2009          80%     79.1%    52%   62.8%      70%      77.0%      6,114    6,671    100%    184.8%       2.75    2.92
GEORGIA DEPARTMENT OF HUMAN SERVICES – $2.5 million
2009        80.0%     87.3%  47.0%   61.4%    65.5%      86.7%      6,011    6,421    100%    196.2%       2.49    2.58
GOODWILL INDUSTRIES INTERNATIONAL INC – $24.3 million
2007          85%     84.5%    34%   43.9%      65%      71.6%      6,803    7,177    155%    161.1%    Baseline   2.25
2008          83%     84.4%    45%   43.3%      71%      77.3%      6,798    6,812    160%    163.9%       2.40    2.49
2009          80%     80.5%    42%   47.5%      70%      78.3%      6,414    6,782    100%    168.7%       2.50    2.50
NATIONAL CAUCUS AND CENTER ON BLACK AGED INC – $30.2 million
2007          85%     84.6%    42%   47.1%      63%      85.1%      6,722    6,633    160%    156.1%    Baseline   1.77
2008          82%     95.3%    45%   44.1%      73%      85.2%      6,162    7,233    158%    168.6%       2.08    2.04
2009          80%     87.3%    44%   49.9%      70%      88.2%      6,819    6,564    100%    196.8%       2.36    2.33
NATIONAL URBAN LEAGUE INC – $19.0 million
2007          68%     74.0%    32%   41.1%      63%      75.4%      6,803    9,338    155%    143.3%    Baseline   2.28
2008          74%     80.3%    40%   32.3%      65%      67.2%      6,525    6,089    155%    145.5%       2.22    2.31
2009          80%     73.8%    33%   34.8%      63%      75.8%      6,312    6,891    100%    150.5%       2.50    1.86
NATIONAL URBAN LEAGUE INC – $2.0 million (ARRA)
2009        80.0%     48.0%  33.4%   29.5%          -         -         -         -   100%    129.9%       2.50    1.97
SENIOR SERVICE AMERICA INC – $115.4 million
2007          82%     82.2%    42%   52.4%      72%      78.7%      6,752    6,430    162%    167.7%    Baseline   2.22
2008          74%     81.8%    48%   40.6%      71%      73.5%      6,529    6,535    155%    157.9%       2.40    2.18
2009          80%     83.2%    37%   30.2%      63%      67.0%      6,398    5,986    100%    186.0%       2.35    1.75
SER-JOBS FOR PROGRESS NATIONAL INC – $33.0 million
2009        75.1%     85.8%  36.8%   27.7%    62.4%      49.4%      6,796    7,269    100%    138.3%       2.47    2.06
STATE OF ALABAMA DEPARTMENT OF SENIOR SERVICES – $0.4 million (ARRA)
2009          80%     83.8%  41.9%   33.3%          -         -         -         -   100%    176.1%       2.34    2.04
TENNESSEE DEPT OF LABOR & WORKFORCE DEVELOPMENT – $0.4 million (ARRA)
2009          80%     70.3%  34.9%   26.3%          -         -         -         -   100%    154.0%       2.07    1.69
VIRGINIA DEPT OF THE AGING – $2.4 million
2009          80%     89.3%  45.2%   48.0%    67.8%      69.0%      6,429    6,280    100%    159.4%       2.51    2.18
VIRGINIA DEPT FOR THE AGING – $0.5 million (ARRA)
2009          80%     72.9%  45.2%   26.3%          -         -         -         -   100%    154.7%       2.51    1.89
Footnotes:
- Per ETA policy these Common Measures were not to be reported for ARRA grants.




                                                                                               Discretionary Grants
                                                          41                           Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              42                      Report No. 02-13-201-03-390
                                                                   U.S. Department of Labor – Office of Inspector General


                                                                          Exhibit 8 – Audit Projection Summary

                                                                                                   TOTAL-      AVERAGE              TOTAL
                                                         Met All                             EXCEPTIONS       EXCEPTION        EXCEPTIONS
                                                FINAL     Grant    UNIVERSE      SAMPLE      BY SAMPLED       IN SAMPLE                PER
STRA                                         AWARD/       Goals         SIZE        SIZE           GRANT         STRATA           STRATA
TA     GRANTEE                         EXPENDITURE        (Y/N)           (A)         (B)               (C)            (D)          (A X D)
1      Experience Works, Inc.            $197,510,562         Y                                          $-             $-
1      AARP Foundation                    153,910,400         Y                                           -              -
1      Senior Service America             115,401,049         Y                                           -              -
       STRATA 1 ($100 million and over)                                     3           3                 -              -                $-
2      AARP Foundation                     87,050,863         Y                                           -              -
2      LA Workforce Commission             73,300,151         N                                 73,300,151     14,660,030
2      Easter Seals                        36,897,480         Y                                           -              -
2      SER- Jobs for Progress              32,915,444         Y                                           -              -
       National Caucus of Black
                                           30,235,030         Y                                           -                -
2      and Aged
       Strata2($30to$100million)                                            5           5       73,300,151     14,660,030        $73,300,151
3      Goodwill Industries                 24,329,525         Y                                          -              -
3      National Urban League               18,968,024         Y                                          -              -
       Strata 3 ($15 to $30 million)                                        8           2                                                 $-
       IN Dept. of Workforce
                                           14,851,209         N                                 14,851,209
4      Development                                                                                               7,425,604
4      Commonwealth of PA                  10,438,659         Y                                          -               -
       Strata4($10to$15million)                                            18           2       14,851,209      7,425,604       $133,660,881
5      MDRC                                 5,500,000         Y                                          -               -
5      MI Dept. of Labor                    5,056,324         N                                  5,056,324       2,528,162
       Strata 5 ($5 to $10 million)                                        26           2        5,056,324      2,528,162        $65,732,207
       AL Senior Services
       Economic & Community                 2,797,456         Y                                           -
6      Affairs                                                                                                           -
6      GA Dept. of Human Services           2,522,096         Y                                          -               -
6      Suffolk Community College            2,367,346         N                                  2,367,346         157,823
6      VA Dept. for the Aging               2,411,183         Y                                          -               -
       Washtenaw Community
                                            2,107,883         N                                  2,107,883
6      College                                                                                                     140,526
       University Of Arkansas
       System of Community                  1,972,351         N                                  1,972,351
6      Colleges                                                                                                    131,490
6      National Urban League                2,001,683         Y                                          -               -
6      Athens Technical College             1,940,963         N                                  1,940,963         129,398
       The Junior College District of
                                            1,942,460         N                                  1,942,460
6      Kansas City                                                                                                 129,497
6      CBIA Education Foundation            1,771,890         N                                  1,771,890         118,126
6      Midlands Technical College           1,574,111         N                                  1,574,111         104,941
6      UAM College of Technology            1,481,270         N                                  1,481,270          98,751
       Palm Beach Community
                                            1,550,653         N                                  1,550,653
6      College                                                                                                     103,377
6      VA Biotech Associates                1,494,369         N                                  1,494,369          99,625
6      Yavapai College                      1,335,136         N                                  1,335,136          89,009
       Strata 6 ($1 to $5 million)                                        231          15       19,538,430      1,302,562       $300,891,827
       Rochester Institute of
                                               908,274        N                                    908,274
7      Technology                                                                                                  302,758
       OR Dept. of Community
                                               524,420        N                                    524,420
7      Colleges & Workforce Dev.                                                                                   174,807
7      VA Dept. for the Aging                  512,741        Y                                          -               -
       Strata 7 ($500,000 to $1 million)                                   73           3        1,432,694        477,565        $34,862,230
       TN. Dept. of Labor and
                                               439,546        Y                                           -                -
8      Workforce Development
8      AL Dept. of Senior Services             393,539        Y                                           -                -
       WA Employment Security
                                               200,616        N                                    200,616         66,872
8      Dept.
       Strata 8 ($200,000 to $500,000 million)                             86           3        1,633,310         66,872         $5,750,990
       MN Dept. of Emp. &
                                               169,158        Y                                           -
9      Economic Dev.                                                                                                     -
9      Latin American Youth Center              99,887        N                                     99,887          33,296
       WE Upjohn Institute for
                                                85,696        Y                                           -
9      Employment Research                                                                                               -
       Strata 9 (Less than $200,000)                                      110           3            99,887         33,296        $3,662,523
       TOTAL                                                 18           560          38       115,912,006     26,494,091      $617,860,810

PROJECTION SUMMARY
                                              ATTRIBUTE             90% CONFIDENCE LEVEL                          Upper
                                                                                               Lower Limit                     LOWER LIMIT
         Weighted Mean Universe              POINT    SAMPLING         LOWER        UPPER                          Limit
                                                                                                Projection                     PROJECTION
             Exception Per Grant          ESTIMATE    PRECISION         LIMIT        LIMIT                    Projection
                   $1,103,322.87            54.82%       17.65%        37.17%      72.48%              208           406       $229,658,863


                                                                                                           Discretionary Grants
                                                                    43                             Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              44                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                                              Discretionary Grants
              45                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              46                      Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

DOL reported in its 2009 Performance Accountability Report that it continues to face
challenges in ensuring it receives the quality of services that the taxpayers deserve
through discretionary grants. Recent OIG and GAO performance audits of ETA
discretionary grants identified weaknesses in grantees meeting performance goals and
the accuracy of financial and performance data.

ETA’s mission is to contribute to the efficient functioning of the U.S. labor market by
providing high quality job training, employment, labor market information, and income
maintenance services operated primarily through state and local workforce development
systems. ETA drives this strategic development of the workforce primarily by the
investment of federal resources through grants.

ETA accomplishes this through its discretionary grant programs where some grants
were awarded competitively. The discretionary grant award process encompasses all
aspects of the planning, execution, oversight, and closeout of ETA awards. The
closeout of grants occurs during the post-performance period which begins at grant
termination and ends with the final disposal of grant records. The goal of this phase is to
complete the closeout of grants expeditiously, which includes the resolution of audits
and collection of debt, and maintenance of all grant financial and performance records
for evaluation and consideration in future awards.

Discretionary Grants are included in numerous ETA programs such as Community
Based Job Training, High Growth, National Emergency Grants, Workforce Innovation in
Regional Economic Development, and Senior Community Service and Employment
Program. These program grants were awarded competitively with the exception of
National Emergency Grants, and State grants under the Senior Community Service and
Employment Program.

Grant Process

The grant process encompasses all aspects of planning, execution, oversight, and
closeout of ETA grant awards. The grant life cycle phases include pre-award, award,
period of performance, and post-performance, and envisions grant management as a
continuous loop with data from each phase informing the next phase. The cycle
encompasses the flow of post-performance information from one grant cycle into the
pre-award and award phases of the next cycle, thus ensuring the program design and
award of new grants takes into account prior grant experience, resulting in continuous
improvement through the process.




                                                                            Discretionary Grants
                                            47                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              48                      Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did ETA close grants in accordance with federal and agency guidelines, including
analyzing final performance results for use in the pre-award phase of future grants?

Scope

The scope of the audit covered 560 discretionary grants closed between April 1, 2010,
and March 31, 2011, representing $1.86 billion, which included 74 American Recovery
and Reinvestment Act (ARRA) grants, totaling $92 million. We selected a statistical
sample of 38 grants to review, totaling $839 million, and included 5 Recovery Act
grants, totaling $3.4 million.

We considered whether internal controls significant to the monitoring of grantees
were properly designed and placed in operation. We confirmed our understanding of
these controls and procedures through interviews and review of ETA’s policies and
procedures.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Methodology

The grants were reviewed to determine whether closeout procedures were performed
timely and appropriately. We also determined whether federal requirements for asset
disposal, audits, and audit resolution were met and whether Information regarding
grantee performance and management was analyzed and the results were used in the
pre-award phase to inform future grant design and investments.

In performing the audit, ETA provided OIG with a detailed listing of discretionary grants
closed between April 1, 2010, and March 31, 2011. We performed a data reliability
assessment to ensure we had complete and accurate grant data. To determine whether
the data was reliable, we requested that DOL’s Office of Information Systems and
Technology perform a query of the requested data in the presence of OIG personnel.
We analyzed the live query by comparing the resultant number of fields, grant count,
and total grant awards to the original data provided by ETA, and reconciled the
differences. All differences for the closed grant data were attributed to the fact that the
data from the Office of Information Systems and Technology contained all discretionary
grant information within DOL, not exclusively grants associated with ETA. Once these


                                                                            Discretionary Grants
                                            49                      Report No. 02-13-201-03-390
                                           U.S. Department of Labor – Office of Inspector General


factors were taken into consideration, the number of fields, grant count, and total grant
award amounts were reconciled. Since we did not identify any differences, we
concluded the data to be sufficiently reliable for the purposes of our audit.

To identify and assess internal controls relevant to our audit objectives, we interviewed
relevant ETA National and Regional personnel, and reviewed available policies and
procedures. In planning and performing our audit, we considered internal controls of
ETA’s system of assessing and communicating grantee information by obtaining an
understanding and performing an audit of the program's internal controls, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of internal controls in order to determine our auditing procedures for the
purpose of achieving our objectives. Our audit covered internal controls over how
grantee assessments are communicated during the closeout phase to the pertinent ETA
Offices. Our consideration of ETA’s internal control for communication of grantee
information would not necessarily disclose all matters that might be significant
deficiencies because of the inherent limitations in internal controls, misstatement, or
losses, non-compliance may nevertheless occur and not be detected.

To gain a better understanding of the ETA’s grant closeout process from the universe of
560 grants closed between April 1, 2010, and March 31, 2011 ($1.9 billion of grant
awards), we statistically sampled 38 grants to review, totaling $839 million (45 percent),
using a 90 percent confidence level and +/-10 percent sampling precision. In order to
ensure that the sample was proportionate to the audit universe in terms of grant dollar
impact, grants for the sample were selected from each stratum using a random
sampling approach where grants with higher award amounts would have a greater
probability of being selected, than those with lower award amounts. For example, the
universe of grants in strata 1 and 2 which represented grants over $30 million had 100
percent chance of being selected, while the universe of grants under $200,000 had a 3
percent chance of being selected.

We reviewed the grant closeout files for the 38 sampled grantees to determine if grants
were closed in accordance with federal and agency guidelines. We compared approved
budgets to grantee General Ledgers and/or summary schedules to ensure that
budgeted line items were not exceeded. We also compared performance outcomes and
deliverables from grant agreements to supporting documentation provided by grantees.
On-site reviews were conducted for four grants (two grants for National Urban League,
Suffolk County Community College, and RIT). During the on-site reviews, we performed
transaction testing on a judgmental basis for both financial and performance data. For
the remaining 34 grants, we did not perform tests on the transactions. In addition, we
interviewed officials from ETA’s National and five Regional Offices.

Criteria

We used the following criteria to accomplish our audit:

•   OMB Circular A-122, Cost Principles for Non-Profit Organizations


                                                                            Discretionary Grants
                                            50                      Report No. 02-13-201-03-390
                                          U.S. Department of Labor – Office of Inspector General


•   OMB Circular A-110, Uniform Administrative Requirements for Grants and Other
    Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit
    Organizations

•   OMB Circular A-87, Cost Principles for State, Local and Indian Tribal
    Governments

•   Code of Federal Regulations 20 CFR Part 641 Provisions Governing the Senior
    Community Service Employment Program Section 641.740(a)

•   Code of Federal Regulations 29 CFR Part 95, subpart D

•   Code of Federal Regulations 29 CFR Part 97, subpart D

•   Code of Federal Regulations 29 CFR Part 666

•   Employment and Training Order: No. 1-08, Grant Management Policies and
    Responsibilities within the Employment and Training Administration, June 2008
    dated

•   Department of Labor Management Standards 2 Chapter 870 – Grant Closeout
    Procedures

•   ETA Core Monitoring Guide, dated April 2005

•   ETA Grant Closeout Handbook, dated May 2009

•   ETA Grant Management Desk Reference, dated February 2009




                                                                           Discretionary Grants
                                           51                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              52                      Report No. 02-13-201-03-390
                   U.S. Department of Labor – Office of Inspector General


                                                          Appendix C
Acronyms


ARRA       American Recovery and Reinvestment Act

CBJT       Community Based Job Training

CFR        Code of Federal Regulations

DOL        United States Department of Labor

EMS        Emergency Medical Services

ETA        Employment and Training Administration

FAPIIS     Federal Awardee Performance and Integrity System

ETO        Employment and Training Order

FPO        Federal Project Officer

HG         High Growth

GJ         Green Jobs

NEG        National Emergency Grant

RIG        Regional Innovation Grants

RIT        Rochester Institute of Technology

SCCC       Suffolk County Community College

SCSEP      Senior Community Service Employment Program

SGA        Solicitation for Grant Application

SOW        Statement of Work

WIA        Workforce Investment Act

WIRED      Workforce Innovation in Regional Economic
           Development




                                                    Discretionary Grants
                    53                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              54                      Report No. 02-13-201-03-390
                                 U.S. Department of Labor – Office of Inspector General


                                                                        Appendix D
ETA's Response to Draft Report




                                                                  Discretionary Grants
                                  55                      Report No. 02-13-201-03-390
U.S. Department of Labor – Office of Inspector General




                                 Discretionary Grants
 56                      Report No. 02-13-201-03-390
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix E
Acknowledgements

Key contributors to this report were: Mark Schwartz, Cardelia Tsoi, Charmaine Thorne,
Eliacim Nieves-Perez, John Schick, and Reza Noorani.




                                                                          Discretionary Grants
                                          57                      Report No. 02-13-201-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              Discretionary Grants
              58                      Report No. 02-13-201-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
